                  Additional Travel Reimbursement and
                 Accounting System Computer Program
                 Controls Would Enhance Travel Voucher
                 Processing and Program Administration

                                  November 2003

                       Reference Number: 2004-20-014




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   November 19, 2003


       MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


       FROM:                        Gordon C. Milbourn III
                                    Assistant Inspector General for Audit (Small Business and
                                    Corporate Programs)

       SUBJECT:                     Final Audit Report – Additional Travel Reimbursement and
                                    Accounting System Computer Program Controls Would Enhance
                                    Travel Voucher Processing and Program Administration
                                    (Audit # 200220045)


       This report presents the results of our review of the Travel Reimbursement and
       Accounting System (TRAS).1 The overall objective of this review was to determine
       whether the TRAS has sufficient controls to ensure management can effectively
       administer travel expenses and travel advances. The Internal Revenue Service (IRS)
       budget for travel and transportation of persons was approximately $192 million in Fiscal
       Year 2003. The Chief Financial Officer (CFO), Chief Information Officer (CIO), and
       Chief, Agency-Wide Shared Services (AWSS), are responsible for administering the
       travel reimbursement program.
       In summary, the TRAS does an adequate job processing travel vouchers and travel
       advances. However, the TRAS does not comply with 6 of the 21 travel system
       requirements established by the Joint Financial Management Improvement Program
       (JFMIP).2 For example, the TRAS does not process amended vouchers. As a result,
       the IRS implemented less efficient manual procedures to process amended vouchers.
       We reviewed TRAS travel voucher data for 159,494 vouchers totaling $151,545,232
       approved between August 27, 2001, and September 30, 2002, and identified several


       1
         The TRAS is an automated web-based computer program that enables travelers to enter requests for travel expense
       reimbursements and travel advances.
       2
         The JFMIP is a joint and cooperative undertaking of the Department of the Treasury, the General Accounting
       Office, the Office of Management and Budget, and the Office of Personnel Management working to improve
       financial management practices in Government.
                                                       2

computer program and program administration controls that need improvement. For
example, 261 vouchers containing duplicate subsistence expenses totaling $25,047
were paid to employees. The IRS corrected the computer program problems, but has
not yet implemented a debt collection process3 to collect the overpayments because of
union negotiations.
In addition, long-term taxable travel expenses were not always identified on vouchers.
Our travel voucher review determined that 13 of 24 employees that traveled for more
than 1 year did not report any of the long-term travel expense as taxable, as required.
The inaccurate reporting of long-term taxable travel resulted in the employees
potentially underreporting income totaling $595,658 and Federal taxes estimated at
$180,485.
Travel vouchers were also not always submitted within 5 workdays after the completion
of travel, as required. Our review determined that 45,869 vouchers were submitted
from 8 to 387 days after the last day of travel. We also determined that 24,057 travel
vouchers were not approved within 7 calendar days after the employee signed the
voucher, as required. When travel vouchers are not submitted and approved timely, the
IRS risks overspending travel budgets and incorrectly reporting travel expenses on
financial statements.
In June 2002, the Beckley Finance Center (BFC) began researching outstanding
advances to determine the actions to be taken (e.g., pursue collection, write-off). The
BFC’s research identified 214 advances over 6 years old, totaling $350,381, at risk of
being uncollectible because there was no documentation with which to initiate collection
action against the employee. The BFC obtained approval from the IRS General Legal
Services to write-off 62 of the 214 advances, totaling $254,702. The remaining
152 advances, totaling $95,679, continue to be at risk of being uncollectible because a
debt collection process has not been implemented. Furthermore, travel advances may
be for amounts larger than necessary because the TRAS computer program does not
consider whether the advance applicant has a Government credit card, the temporary
post of duty, or the length of travel. Without effective travel advance application controls
and a debt collection process, the IRS is at risk of having excessive amounts of
advances outstanding that may not be recoverable.
Finally, our analysis of the database of 68,891 authorized users with access to the
TRAS as of September 26, 2002, determined that 2,795 of the users were former
employees that should have been removed from the system. By not effectively
maintaining the TRAS user database, the IRS increases the risk of unauthorized access
to the system and the potential filing of unauthorized travel vouchers.
We recommended that the CFO coordinate with the General Services Administration’s
(GSA) e-Travel initiative to ensure the IRS’ travel voucher processing system meets all
JFMIP requirements; use the planned TRAS long-term travel authorization


3
 A process for recovering travel-related debts owed by an employee. Methods for recovery include deducting the
debt from the employee’s salary or from other monies owed to the employee.
                                            3

enhancements to assure managers are periodically reassessing employee travel plans
and ensuring compliance with long-term taxable travel requirements; reemphasize to
employees the requirements for timely filing travel vouchers; and monitor the timeliness
of travel advance settlement to identify travel vouchers that have not been filed. The
CFO should also coordinate with the Chief, AWSS, and the CIO to ensure the TRAS
sends an e-mail to managers advising of vouchers needing approval and stating that
receipts should be obtained and reviewed prior to approval. The CFO should also
ensure that the Travel Handbook or Interim Travel Handbook is modified to be
consistent with the Federal Travel Regulation (FTR); the TRAS limits the advance
amount as required; a debt collection process is implemented; and the TRAS database
is periodically reviewed for accuracy. The Chief, AWSS, should ensure former
employees are removed from the TRAS user database.
Management’s Response: Management concurred with six of our recommendations,
partially agreed with two recommendations, and disagreed with the remaining two
recommendations. IRS management plans to take the following actions: coordinate
with the GSA to ensure that the e-Travel product meets IRS operational requirements;
complete an optimization study regarding the responsibility for oversight of long-term
taxable travel; reemphasize to employees the importance of timely filing vouchers; and
develop a per-trip authorization and travel advance liquidation process. IRS
management also plans to complete union negotiations and issue a new Internal
Revenue Manual in accordance with the FTR; implement TRAS computer application
limits for the amount of travel advance based on travel conditions cited in the FTR; and
conduct periodic reviews of the authorized user database.
IRS management also completed the following actions: commenced use of the TRAS
e-mail notification feature advising managers that a voucher awaits approval; reached
an agreement with the union on a debt collection process; and removed separated
employees from the TRAS user database. Management’s complete response to the
draft report is included as Appendix VI.
Office of Audit Comment: Management disagreed with our recommendation that the
CFO should coordinate with the GSA e-Travel initiative to ensure the IRS’ travel
voucher processing system meets all JFMIP requirements. They stated that the GSA is
selecting a JFMIP compliant product. However, we believe the IRS should incorporate
the JFMIP requirements into its operational requirements when working with the GSA
and the Department of the Treasury to implement the e-Travel system. For the three
remaining recommendations with which IRS management disagreed or partially agreed,
their alternative corrective actions will address the recommendations.
While we still believe our recommendation with which management did not concur is
worthwhile, we do not intend to elevate our disagreement concerning it to the
Department of the Treasury for resolution.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
                                          4

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
                      Additional Travel Reimbursement and Accounting System
                        Computer Program Controls Would Enhance Travel
                          Voucher Processing and Program Administration




                                                 Table of Contents


Background ............................................................................................... Page 1
The Travel Reimbursement and Accounting System Does an
Adequate Job Processing Travel Vouchers and Travel Advances,
but Additional System Requirements Need to Be Met............................... Page 3
         Recommendation 1: ..................................................................... Page 4

Additional Computer Program Controls and Operating
Procedures Would Improve Travel Voucher Processing ........................... Page 5
         Recommendations 2 and 3: ......................................................... Page 12
         Recommendations 4 through 6: ................................................... Page 13

Travel Advances Are Not Effectively Administered.................................... Page 14
         Recommendations 7 and 8: ......................................................... Page 16

Former Employees Are Included in the Travel
Reimbursement and Accounting System User List.................................... Page 16
         Recommendation 9: ..................................................................... Page 17
         Recommendation 10: ................................................................... Page 18

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 19
Appendix II – Major Contributors to This Report........................................ Page 21
Appendix III – Report Distribution List ....................................................... Page 22
Appendix IV – Outcome Measures ............................................................ Page 23
Appendix V – Mandatory Joint Financial Management Improvement
Program Requirements Not Included in the Travel Reimbursement
and Accounting System............................................................................. Page 26
Appendix VI – Management’s Response to the Draft Report .................... Page 27
             Additional Travel Reimbursement and Accounting System
                Computer Program Controls Would Enhance Travel
                 Voucher Processing and Program Administration

                              Employee travel and transportation spending is a significant
Background
                              expense in the Internal Revenue Service (IRS). The IRS
                              budget for travel and transportation of persons was
                              approximately $192 million in Fiscal Year (FY) 2003. The
                              Chief Financial Officer’s (CFO) Office of Policies and
                              Procedures (OPP) and the Beckley Finance Center (BFC);
                              the Chief Information Officer’s (CIO) Charlotte
                              Development Center (CDC); and the Chief, Agency-Wide
                              Shared Services’ (AWSS) Office of Customer Support are
                              responsible for administering the travel reimbursement
                              program.
                              The OPP’s responsibilities include overseeing the Travel
                              Reimbursement and Accounting System (TRAS),1 providing
                              assistance to IRS employees on travel, developing and
                              maintaining directives on travel, and reviewing and
                              interpreting Government travel regulations.
                              The BFC’s responsibilities include accurately and timely
                              processing all Government administrative accounts payable,
                              accounts receivable and collections, manual travel and
                              relocation vouchers; preparing reports and reconciliations
                              for general ledger accounts, the Department of the Treasury,
                              and IRS Headquarters; and ensuring the integrity of IRS
                              financial statements by coordinating the fiscal and calendar
                              year-end audits.
                              The CDC’s responsibilities include maintaining the TRAS
                              computer program and resolving TRAS systemic problems.
                              The Office of Customer Support’s responsibilities include
                              providing guidance to personnel regarding travel policies and
                              guidelines; authorizing, administering, and removing TRAS
                              users; performing the TRAS administrative duties; and
                              providing technical assistance to end users.
                              As of July 31, 2003, the TRAS had 66,865 active users.
                              According to the IRS, all travel regulations, rules,
                              limitations, and computations are automated into the


                              1
                                The TRAS is an automated web-based computer program that enables
                              travelers to enter requests for travel expense reimbursements and travel
                              advances.
                                                                                               Page 1
Additional Travel Reimbursement and Accounting System
   Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration

                 process. Vouchers and advances are signed and approved
                 through computer access. Approved vouchers and advances
                 are electronically transmitted daily to the Automated
                 Financial System (AFS)2 for processing and disbursement.
                 As of January 31, 2003, the IRS had 2,841 travel advances
                 outstanding, totaling $2.58 million.
                 The IRS is currently developing the Integrated Financial
                 System (IFS) to replace the AFS. The IFS implementation
                 has been rescheduled to begin in early 2004. The IFS
                 development relating to travel reimbursement and advances
                 includes the interface between the IFS and the TRAS.
                 In addition, the General Services Administration (GSA) is
                 developing the e-Travel initiative. The new system will
                 provide a Government-wide, web-based, end-to-end travel
                 management system for Federal employees. The system
                 aims to automate and consolidate travel processes from
                 planning to reimbursement and reconciliation across
                 agencies. The GSA’s proposed amendment to the Federal
                 Travel Regulation (FTR) for use of the e-Travel system
                 would require agencies to submit migration plans by
                 March 31, 2004, begin implementing the e-Travel Service
                 no later than December 31, 2004, and complete migration
                 for full agency-wide use by September 30, 2006. IRS
                 management advised us that during FY 2005 they plan to
                 implement the e-Travel initiative, which will replace the
                 TRAS. On August 15, 2003, the GSA selected two
                 contractors to develop the e-Travel Service. However, the
                 contract award is currently being protested.
                 Audit work was performed from January through
                 August 2003 at the CFO offices in Bethesda, Maryland, and
                 Beckley, West Virginia. The audit was conducted in
                 accordance with Government Auditing Standards. Detailed
                 information on our audit objective, scope, and methodology

                 2
                  The AFS is an integrated accounting and budgeting system designed to
                 provide administrative funds control, along with the ability to access
                 accurate information on a timely basis. Travel vouchers and advances
                 processed through the TRAS are sent to the AFS for additional
                 processing and the issuance of funds to the employee. The AFS also
                 updates the TRAS with advance balance information.
                                                                               Page 2
                Additional Travel Reimbursement and Accounting System
                   Computer Program Controls Would Enhance Travel
                    Voucher Processing and Program Administration

                                 is presented in Appendix I. Major contributors to the report
                                 are listed in Appendix II.
                                 The Joint Financial Management Improvement Program
The Travel Reimbursement and
                                 (JFMIP)3 established travel system requirements for
Accounting System Does an
                                 Government agencies. The IRS complies with most of the
Adequate Job Processing Travel
                                 mandatory travel voucher and travel advance requirements
Vouchers and Travel Advances,
                                 (summarized in Table 1).
but Additional System
Requirements Need to Be Met                 Table 1: Summary of Compliance With JFMIP
                                           Travel Voucher and Travel Advance Requirements

                                                    JFMIP Requirements Met
                                         Yes4                  No5                    Partial6
                                         13                      6                        2
                                 Source: JFMIP Travel System Requirements, IRS documentation, and
                                 the TRAS.

                                 For example, the TRAS provides the capability to:
                                     •   Calculate authorized mileage allowances and per
                                         diem amounts (including reduced per diem rates)
                                         based on temporary duty location and other related
                                         information.
                                     •   Display defined messages to the user regarding
                                         required receipts for lodging and authorized
                                         expenses incurred costing $75 or more.
                                     •   Record the departure and arrival dates to and from
                                         the official duty station or any other place when
                                         travel begins, ends, or requires overnight lodging.
                                     •   Set, change, and apply established limits on travel
                                         advances.

                                 3
                                   The JFMIP is a joint and cooperative undertaking of the Department of
                                 the Treasury, the General Accounting Office, the Office of Management
                                 and Budget, and the Office of Personnel Management working to
                                 improve financial management practices in Government.
                                 4
                                   The TRAS controls met 11 requirements and the AFS controls met
                                 2 requirements.
                                 5
                                   See Appendix V for a list of the requirements not met.
                                 6
                                   The TRAS met some of the elements of the requirement but not all of
                                 the elements.
                                                                                                 Page 3
Additional Travel Reimbursement and Accounting System
   Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration

                    •   Liquidate an advance by deducting it from a travel
                        voucher claim prior to the issuance of a payment to
                        the traveler.
                 We tested and confirmed the TRAS’ ability to meet the
                 requirements by entering incorrect travel voucher and
                 advance information into the system and analyzing the
                 results. The system properly identified the incorrect
                 information and returned various error messages to the user.
                 However, the IRS does not comply with 6 of the
                 21 mandatory requirements. For example, the TRAS does
                 not process amended vouchers. As a result, the IRS
                 implemented less efficient manual processes for processing
                 amended or supplemental travel vouchers. The JFMIP
                 requirements have not been met because the TRAS was
                 implemented prior to the requirements being established and
                 management did not intend for TRAS to be JFMIP
                 compliant. In addition, with the foreseeable implementation
                 of the GSA e-Travel initiative, only limited enhancements to
                 the TRAS (e.g., IFS interface development) will be funded.

                 Recommendation

                 1. The CFO should coordinate with the GSA e-Travel
                    initiative to ensure the IRS’ travel voucher processing
                    system meets all JFMIP requirements.
                 Management’s Response: Management disagreed with the
                 recommendation. They stated that the GSA is selecting the
                 e-Travel system, which will replace the IRS’ travel voucher
                 processing system. The GSA can only acquire a
                 Commercial Off-The Shelf product that has a valid JFMIP
                 certificate. The IRS will work with the GSA and the
                 Department of the Treasury to ensure the GSA product
                 meets the IRS operational requirements.
                 Office of Audit Comment: We acknowledge that the IRS is
                 not responsible for the selection of the GSA product. The
                 GSA is responsible for the selection of a JFMIP compliant
                 product. However, the IRS should incorporate the JFMIP
                 requirements into its operational requirements when


                                                                       Page 4
               Additional Travel Reimbursement and Accounting System
                  Computer Program Controls Would Enhance Travel
                   Voucher Processing and Program Administration

                                working with the GSA and the Department of the Treasury
                                to implement the e-Travel system.
                                We reviewed TRAS travel voucher data for
Additional Computer Program
                                159,494 vouchers, totaling $151,545,232, approved between
Controls and Operating
                                August 27, 2001, and September 30, 2002.7 Our analysis
Procedures Would Improve
                                identified several computer program and program
Travel Voucher Processing
                                administration controls that need improvement.
                                Duplicate travel expenses have been paid to employees
                                and have not been recovered
                                The Office of Management and Budget Circular A-127,
                                Financial Management Systems, indicates that financial
                                information on Federal Government operations should:
                                       •    Be complete, reliable, consistent, timely, and useful
                                            to enable management to carry out their fiduciary
                                            responsibilities.
                                       •    Deter fraud, waste, and abuse of Federal
                                            Government resources.
                                       •    Facilitate efficient and effective delivery of
                                            programs through relating financial consequences to
                                            program performance.
                                The IRS Interim Travel Handbook (ITH) provides the travel
                                regulations and procedures for employees who perform
                                official travel. For example, the ITH provides instructions
                                for preparing travel/reimbursement vouchers and submitting
                                vouchers with required documents and receipts attached. It
                                is also for supervisory and administrative personnel who
                                authorize, direct, or review such travel, or certify payments
                                in reimbursement of travel-related expenses. Supervisory
                                responsibilities include informing employees of travel
                                policies and procedures by providing them with the ITH,
                                answering employee questions, and determining allowable
                                travel expenses.
                                Our travel voucher review identified 268 travel vouchers
                                containing $29,175 in duplicate claims of subsistence


                                7
                                    See Appendix I for the data analysis methodology.
                                                                                           Page 5
Additional Travel Reimbursement and Accounting System
   Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration

                 expenses (e.g., multiple trips, multiple lodging, and/or
                 Meals and Incidental Expenses [M&IE] claimed on the
                 same day). Management advised us that 7 of the vouchers
                 with duplicate claims for $4,128 were caused by a computer
                 program problem that occurred in calendar year 2001 with
                 the implementation of the TRAS. The computer program
                 was recording duplicate expenditures on the travel voucher
                 when multiple copies of the TRAS program were open via
                 multiple web browsers. The duplicate expense claims on
                 these vouchers were researched and adjustments to correct
                 the vouchers were identified by the BFC. However, the
                 duplicate subsistence expense claims of $25,047 on the
                 remaining 261 vouchers that were paid to the employees
                 occurred because management’s review and inadequate
                 computer program controls did not identify the duplicate
                 claims.
                 In April 2002, management began working on a TRAS
                 update that was implemented on May 18, 2003. After the
                 update was implemented, we tested the TRAS controls by
                 attempting to submit travel vouchers that contained invalid
                 information. The TRAS correctly responded with error
                 messages based on the information entered into the system.
                 Our TRAS tests determined that the computer program
                 control weaknesses initially identified during our travel
                 voucher review had been corrected.
                 In addition, the IRS does not have a debt collection process8
                 in place to collect the overpayments of travel expenses from
                 employees. Although the Department of the Treasury
                 Directive 34-01 authorized the IRS to collect the
                 overpayments from employees, implementation of the
                 process has been in negotiations with the National Treasury
                 Employee’s Union (NTEU) since October 2002.
                 Without effective management review and approval of
                 travel expense claims to disallow the entry of inappropriate
                 travel expenses, the IRS cannot ensure reimbursed travel


                 8
                  A process for recovering travel-related debts owed by an employee.
                 Methods for recovery include deducting the debt from the employee’s
                 salary or from other monies owed to the employee.
                                                                               Page 6
Additional Travel Reimbursement and Accounting System
   Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration

                 expenses are proper and accurate. Also, without
                 implementing an effective overpayment recovery process,
                 the IRS cannot ensure improper payments are recovered.
                 Two employees approved their own travel voucher
                 Delegation Order Number 95 in the Internal Revenue
                 Manual (IRM) provides that the Commissioner of Internal
                 Revenue delegated to certain IRS officials the authority to
                 approve vouchers claiming reimbursement for travel;
                 however, it further states that the officials may not approve
                 their own vouchers. The officials in the next higher-level
                 position will approve the travel vouchers.
                 Our travel voucher review identified two employees who
                 entered vouchers for travel expenses and then signed and
                 approved their own vouchers. One of the 2 employees
                 edited the self-approved voucher totaling $749.88 and
                 another manager subsequently approved the voucher before
                 being paid.
                 The second employee signed and approved 2 of his own
                 vouchers totaling $157.52. Management advised us that the
                 vouchers were actually approved by the employee’s
                 secretary using the employee’s password. We researched
                 the IRS active directory and determined the second
                 individual is no longer an IRS employee. Permitting
                 employees to approve their own vouchers increases the risk
                 that unauthorized expenses are approved. Management
                 stated that they had identified, fixed, and tested this control
                 weakness with a TRAS update in October 2002.
                 Management also stated that they had reviewed the TRAS
                 data through June 2003 and found that problems with the
                 approval process had not recurred.
                 Long-term taxable travel expenses are not always
                 identified on vouchers
                 Internal Revenue Ruling 99-7 provides that if employment
                 at a work location is realistically expected to last for more
                 than 1 year or there is no realistic expectation that the
                 employment will last for 1 year or less, the employment is
                 not temporary, regardless of whether it actually exceeds
                 1 year. The expense reimbursements paid by employers to

                                                                         Page 7
Additional Travel Reimbursement and Accounting System
   Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration

                 employees for assignments lasting more than 1 year are
                 wages subject to income tax. The ITH states that all travel
                 reimbursements for assignments lasting more than
                 1 year are considered to be taxable income.
                 IRS employees are not always identifying travel expenses as
                 long-term taxable travel. This issue was previously reported
                 in the Treasury Inspector General for Tax Administration
                 audit report, Controls Need to Be Strengthened Over the
                 Internal Revenue Service’s Taxable Travel Reporting
                 (Reference Number 2002-10-107, dated June 2002). Our
                 travel voucher review identified 24 employees who
                 continuously traveled to a single location for more than
                 1 year. Although 11 of the employees reported their travel
                 expense as taxable and received a Wage and Tax Statement
                 (Form W-2) for the taxable travel, 13 of the employees did
                 not report any of the travel expense as taxable. Therefore,
                 the 13 employees did not receive a Form W-2 for taxable
                 travel. The inaccurate reporting of long-term taxable travel
                 resulted in the employees potentially underreporting income
                 totaling $595,658 and Federal income, Federal Insurance
                 Contribution Act,9 and Medicare taxes estimated at
                 $180,485.10
                 Long-term travel is not being properly reported as taxable
                 because management is not enforcing long-term taxable
                 travel requirements. Also, the TRAS does not have any
                 computer program controls to advise management that an
                 employee’s travel history indicates that they may be in a
                 long-term taxable travel situation. In addition, long-term
                 travel authorization processing is currently performed
                 manually, and management plans to add this processing to
                 the TRAS in a future enhancement.
                 In March 2003, the CFO issued a memorandum to the
                 Heads of Office asking them to ensure that all employees
                 and managers are familiar with long-term taxable
                 requirements. Also, the User Guide located on the TRAS


                 9
                   26 USC, Section 3101.
                 10
                    See Appendix IV for the calculation of estimated underreported
                 income tax.
                                                                                 Page 8
Additional Travel Reimbursement and Accounting System
   Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration

                 Help screen contains further guidance on long-term taxable
                 travel.
                 Without automated periodic assessments and management
                 review of employee travel activities, the IRS cannot ensure
                 employees properly report their income and Federal taxes.
                 Travel vouchers are not timely submitted
                 The FTR requires vouchers to be submitted within
                 5 workdays after a traveler completes a trip or period of
                 travel, or every 30 days if the traveler is in continuous travel
                 status, unless an agency administratively requires the travel
                 voucher to be filed within a shorter time period. The ITH
                 states that vouchers must be submitted promptly at the end
                 of the month or within 15 workdays after the completion of
                 travel. Travelers may submit vouchers earlier if there is
                 reasonable certainty that there will be no additional travel
                 during the travel period. It further states that prompt
                 submission of vouchers is in the best interest of the
                 employees. The NTEU National Agreement requires a
                 non-recurring traveler to submit a travel voucher and
                 liquidate the entire outstanding advance within either
                 15 calendar days after the completion of a trip or by the end
                 of the voucher period.
                 Our review of the travel vouchers determined that
                 45,869 of 159,494 travel vouchers were not submitted
                 within 5 workdays11 of the completion of travel as required.
                 These travel vouchers were submitted from 8 to 387 days
                 after the last day of travel listed on the travel voucher. In
                 addition, we could not identify the travelers that were in a
                 continuous travel status to test whether vouchers were
                 submitted every 30 days as required. Alternatively, we
                 identified 10,361 vouchers with travel periods ranging from
                 32 days to 365 days. These travel vouchers were not timely
                 submitted since the travel period exceeded the required
                 30-day period for submitting a voucher (e.g., a 365 day
                 travel period means only 1 voucher was submitted for the

                 11
                   We could not convert the days in our data to workdays; therefore, we
                 assessed timely submission of travel vouchers by using 7 calendar days
                 which allowed 2 days for weekends.
                                                                                Page 9
Additional Travel Reimbursement and Accounting System
   Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration

                 entire year). Table 2 provides information on the timeliness
                 of travel voucher submissions.
                          Table 2: Travel Voucher Submission Timeliness

                   Number of Days in the Voucher            Number of Vouchers
                              Period
                       > 31 Days and ≤ 46 Days                             5,418
                       > 46 Days and ≤ 92 Days                             3,982
                      > 92 Days and ≤ 183 Days                               802
                      >183 Days and ≤ 273 Days                               113
                              > 273 Days                                      46
                                TOTAL                                     10,361
                 Source: TRAS data for travel vouchers approved between
                 August 27, 2001, and September 30, 2002.

                 Travel vouchers are not being timely submitted because
                 management is not effectively monitoring employee travel
                 to ensure vouchers are timely submitted. In addition, the
                 timeliness of travel voucher submission is not reviewed to
                 identify instances of untimely submission, and the TRAS
                 computer program controls do not identify untimely
                 submitted vouchers. As a result of travel vouchers not being
                 timely submitted, the IRS risks overspending travel budgets
                 and incorrectly reporting travel expense on financial
                 statements. Employees also risk losing receipts required for
                 reimbursement.
                 Travel vouchers are not timely approved and paid
                 The FTR allows the approving official 7 workdays for
                 notifying an employee that his or her travel expense claim is
                 not proper. It also requires agencies to reimburse an
                 employee within 30 days after the employee submits a
                 proper travel voucher to the approving official or pay a late
                 payment fee. The IRS began paying late payment fees on
                 October 1, 2002.
                 The IRS further restricted the notification period from
                 7 workdays to 7 calendar days. Our review of travel
                 vouchers, based on the IRS requirement, determined that
                                                                          Page 10
Additional Travel Reimbursement and Accounting System
   Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration

                 85 percent of employee travel vouchers were approved
                 within 7 calendar days. Table 3 provides information on the
                 timeliness of travel voucher approvals.
                           Table 3: Travel Voucher Approval Timeliness

                  Number of Days to           Number of         Percent Approved
                  Approve Voucher             Vouchers
                       ≤ 7 Days                     135,437                85 percent
                      8 – 30 Days                    22,971                14 percent
                       > 30 Days                      1,086                 1 percent
                        TOTAL                       159,494               100 percent
                 Source: TRAS data for travel vouchers approved between
                 August 27, 2001, and September 30, 2002.

                 BFC management provided information reporting that
                 $869 in late payment fees ($700 for TRAS vouchers and
                 $169 for manual vouchers) had been paid to employees on
                 291 travel vouchers through July 23, 2003. Late payment
                 fees were paid for various reasons, but primarily for delayed
                 approval. Travel vouchers are not being timely paid
                 because there is a delay in approving the vouchers, the
                 payments are reissued, or there is a delay in sending the
                 voucher to the BFC. The TRAS has the capability to send
                 an e-mail to the employee’s manager advising him or her
                 that a travel voucher is awaiting approval. However, the
                 e-mail reminder capability was turned off because of AWSS
                 concerns that the manager will interpret the e-mail as
                 instructions to approve the travel voucher without reviewing
                 the appropriate expense receipts.
                 When travel vouchers are not timely approved and paid, the
                 IRS risks overspending travel budgets, incorrectly reporting
                 travel expenses on financial statements, and unnecessarily
                 paying late payment fees to employees.




                                                                             Page 11
Additional Travel Reimbursement and Accounting System
   Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration

                 Recommendations

                 The CFO should:
                 2. Use the planned TRAS long-term travel authorization
                    processing enhancements to assure that managers are
                    periodically (e.g., semi-annually) reassessing employee
                    travel plans and ensuring compliance with long-term
                    taxable travel requirements.
                    Management’s Response: Management partially agreed
                    with the recommendation. The CFO has issued previous
                    guidance on the importance of classifying long-term
                    travel accurately; however establishing travel
                    authorizations/obligations on a per trip basis is the only
                    effective means of controlling travel expenditures and
                    taxable classifications. The ongoing Optimization Study
                    may consolidate the responsibility for oversight of this
                    area in the AWSS. Once the Optimization Study is
                    finished and the IFS is implemented, the IRS will
                    determine the best avenue for periodically assessing
                    compliance.
                    Office of Audit Comment: The TRAS long-term travel
                    authorization processing enhancements are being
                    coordinated with the IFS development and
                    implementation. The IFS implementation plus the
                    additional actions by management should address the
                    issue to monitor/review compliance with long-term
                    taxable travel requirements.
                 3. Reemphasize to employees the requirements for timely
                    filing travel vouchers.
                    Management’s Response: Management agreed with the
                    recommendation as a stop-gap measure only. The
                    current voucher processing system can only indicate
                    which vouchers are not processed timely – it cannot tell
                    which vouchers have not been filed at all. The more
                    permanent solution for this problem is to institute
                    per-trip travel authorizations, which the IRS plans to do
                    concurrent with the implementation of the IFS.


                                                                      Page 12
Additional Travel Reimbursement and Accounting System
   Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration

                 4. Monitor the timeliness of travel advance settlements to
                    identify travel vouchers that have not been filed.
                    Management’s Response: Management disagreed with
                    the recommendation because travel advances are
                    currently pooled and do not represent separate advances
                    for separate trips. Through the implementation of the
                    IFS, all advances will be associated with an individual
                    travel authorization. In addition, all advances will be
                    liquidated each time a travel voucher is filed. Collection
                    activities will commence on travel advances unpaid
                    within 30 days. The processes have already been
                    programmed into the version of TRAS that will go into
                    production with the IFS.
                    Office of Audit Comment: While IRS management
                    disagreed with the recommendation, the corrective
                    actions they plan to take will address the
                    recommendation.
                 5. Modify the Travel Handbook or ITH to require vouchers
                    to be filed within 5 workdays of completing a trip or
                    every 30 days if in continuous travel status, as required
                    by the FTR.
                    Management’s Response: Management partially agreed
                    with the recommendation. Management has chosen to
                    focus on publishing a new IRM, which will replace the
                    ITH. The FTR provisions are incorporated into the new
                    travel IRM currently being negotiated with the NTEU.
                    Office of Audit Comment: While this action will
                    address the recommendation, the completion of NTEU
                    negotiations and implementation of the new IRM are
                    projected for January 15, 2005, which seems to be an
                    extraordinarily lengthy period for the IRS to operate
                    without current travel guidelines.
                 6. Coordinate with the Chief, AWSS, and CIO to ensure
                    the TRAS e-mail reminder feature advising managers
                    that a travel voucher is awaiting their approval is turned
                    on and includes a reminder in the e-mail that receipts
                    should be obtained and reviewed before approving the
                    voucher.

                                                                       Page 13
                Additional Travel Reimbursement and Accounting System
                   Computer Program Controls Would Enhance Travel
                    Voucher Processing and Program Administration

                                    Management’s Response: Effective October 1, 2003,
                                    the TRAS e-mail notification feature was turned on for
                                    all IRS employees. The e-mail advises managers that a
                                    voucher awaits their approval and that receipts should be
                                    reviewed prior to approval.
                                 The JFMIP Travel System Requirements state that the travel
Travel Advances Are Not
                                 advance function must provide for entry, processing,
Effectively Administered
                                 approval, tracking, aging, payment, and liquidation of travel
                                 advances. The FTR states that for travelers with a
                                 Government charge card, the maximum amount an agency
                                 may advance for travel is limited to the estimated amount of
                                 the travelers’ cash transaction expenses (e.g., M&IE and
                                 miscellaneous transportation expense). The IRS ITH states
                                 that the traveler should base the amount of the advance on
                                 such factors as the nature and duration of the planned travel
                                 and whether the employee has the Government charge card.
                                 Travelers may request travel advances manually,
                                 electronically through the TRAS, or from the small cash
                                 (imprest) funds. The supervisor who reviews the
                                 application for an advance must determine that the amount
                                 requested is not greater than the amount required to perform
                                 the planned travel. The TRAS User Guide states that
                                 individual advances are limited to $5,000 and the total
                                 outstanding advance balance, including the advance
                                 requested, may not exceed $10,000.
                                 Once an employee receives an advance, it is tracked and
                                 aged by the AFS. When an employee with a travel advance
                                 does not travel for 60 days, the AFS will generate a letter to
                                 the employee advising that the advance must be returned or
                                 it will become taxable. The notice issued after no travel for
                                 120 days advises the employee that the travel advance has
                                 become taxable but still must be returned to the IRS.
                                 In June 2002, the BFC began researching outstanding
                                 advances to determine the actions to be taken (e.g., pursue
                                 collection, write-off). Our review of the AFS Outstanding
                                 Travel Advance Report identified 49 outstanding advances
                                 over 10 years old. The BFC’s review of the outstanding
                                 travel advances identified 214 advances over 6 years old
                                 totaling $350,381 at risk of being uncollectible because

                                                                                       Page 14
Additional Travel Reimbursement and Accounting System
   Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration

                 there was no documentation to initiate collection action
                 against the employee. The BFC obtained approval from the
                 IRS General Legal Services to write-off 62 of these
                 214 advances, totaling $254,702, because there was no
                 supporting documentation. The remaining 152 advances,
                 totaling $95,679, continue to be at risk of being
                 uncollectible. Management advised us that in 1998 the
                 travel management program was centralized in the CFO
                 office, but the documentation for the advances was not
                 received from the former regional headquarters offices.
                 The Department of the Treasury Directive 34-01 authorized
                 the IRS to collect the outstanding advances from employees.
                 Management advised that a draft debt collection policy has
                 been prepared but not yet implemented because it has been
                 negotiating the issue with the NTEU since October 2002.
                 In addition, the TRAS computer program does not consider
                 whether the advance applicant has a Government credit
                 card, the temporary post of duty, or the length of travel.
                 Therefore, advances may be for amounts larger than
                 necessary.
                 We also identified 2 advances over $10,000. Our review of
                 the TRAS advance application determined that users could
                 not request an advance greater than the IRS $5,000 limit or
                 have total advances greater than the IRS $10,000 limit if all
                 of the advances are requested electronically. However,
                 advances requested manually are processed through the AFS
                 and are not immediately updated in TRAS, thus allowing
                 employees to obtain advances higher than the established
                 limit.
                 Without effective travel advance application controls and a
                 recovery process, the IRS is at risk of having excessive
                 amounts of advances outstanding that may not be
                 recoverable.




                                                                      Page 15
              Additional Travel Reimbursement and Accounting System
                 Computer Program Controls Would Enhance Travel
                  Voucher Processing and Program Administration

                               Recommendations

                               The CFO should:
                               7. Ensure the travel advance computer program limits the
                                  amount of the advance based on the stated travel
                                  conditions, as required by the FTR.
                                  Management’s Response: The TRAS version 10.0 has
                                  been modified to include travel advance limitations and
                                  will go into production with the implementation of the
                                  IFS.
                               8. Ensure a debt collection process is implemented to
                                  recover the overpayment of travel expenses and
                                  delinquent advances.
                                  Management’s Response: The IRS has been negotiating
                                  with the NTEU regarding collecting debts owed by
                                  bargaining unit employees since June 2002. The IRS
                                  has reached agreement with the NTEU and is in the
                                  process of signing a letter of agreement. Upon
                                  finalization, the IRS will pursue collection of employee
                                  debts and the subsequent referral to the Department of
                                  the Treasury Offset Program.
                               The General Accounting Office Standards for Internal
Former Employees Are
                               Control in the Federal Government require that security
Included in the Travel
                               access controls protect systems from inappropriate access
Reimbursement and Accounting
                               and unauthorized use by hackers or inappropriate use by
System User List
                               agency personnel. Specific control activities include the
                               deactivation of former employees’ passwords. The IRM
                               requires that managers of system users provide prompt
                               notification to a system’s security administrator of changes
                               in employee status (e.g., employee changes assignments
                               and/or manager, leaves the IRS) and requires the security
                               administrator to take prompt and appropriate action to
                               change the employee’s access profile and/or remove the
                               employee from the system.
                               The original TRAS, which used five separate databases (one
                               for each of the five IRS regions), was converted to a
                               consolidated database during the period August 2001 to
                               December 2001. Prior to consolidation, users were

                                                                                    Page 16
Additional Travel Reimbursement and Accounting System
   Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration

                 supposed to be added or removed from each TRAS when
                 they changed regions. However, some users were not
                 removed from the system when they changed regions.
                 Therefore, even though the employees were removed from
                 their new regional system when they separated from the
                 IRS, they were still active in their former regional system.
                 As a result, when the regional TRAS databases were
                 consolidated, the separated employees with active user
                 accounts were added to the consolidated TRAS with all the
                 other active users.
                 We analyzed the database of 68,891 authorized users with
                 access to the TRAS, as of September 26, 2002, and
                 determined that 2,795 of the users were former employees
                 (i.e., were on the Treasury Integrated Management
                 Information System (TIMIS)12 separation database) that
                 should have been removed from the system. We reviewed
                 the TIMIS information and verified that these authorized
                 users with access to the TRAS have separated from the IRS.
                 Management advised us that in November 2002 they started
                 using the TIMIS database to update the TRAS authorized
                 user database with personnel changes each pay period.
                 However, the complete TRAS authorized user database has
                 not been compared to the TIMIS. The TIMIS update
                 appears to be working effectively for current personnel
                 changes because all of the former employees we identified
                 separated from the IRS before the TIMIS updates began.
                 By not effectively maintaining the TRAS user database, the
                 IRS increases the risk of unauthorized access to the system
                 and the potential filing of unauthorized travel vouchers.

                 Recommendations

                 9. The Chief, AWSS, should ensure the identified former
                    employees are removed from the TRAS authorized user
                    database.



                 12
                    The official automated personnel and payroll system for storing and
                 tracking all employee personnel and payroll data.
                                                                                Page 17
Additional Travel Reimbursement and Accounting System
   Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration

                    Management’s Response: The former employees have
                    been removed from the user database and the current
                    process that is in place to remove separated employees
                    from the user database is effective for current personnel
                    changes.
                 10. The CFO should conduct periodic (e.g., annual) reviews
                     of the authorized user database to ensure only authorized
                     individuals have access to the TRAS.
                    Management’s Response: The CFO will develop and
                    implement procedures to conduct periodic reviews of the
                    authorized user database.




                                                                      Page 18
                   Additional Travel Reimbursement and Accounting System
                     Computer Program Controls Would Enhance Travel
                       Voucher Processing and Program Administration

                                                                                                  Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the Travel Reimbursement and
Accounting System (TRAS)1 has sufficient controls to ensure management can effectively
administer travel expenses and travel advances. To accomplish this objective, we:
I. Determined if adequate policies, procedures, and application controls were in place to ensure
   that travel expenses were valid and did not exceed established limitations.
    A.    Assessed the existing management controls and guidance used to develop controls for
          processing travel vouchers through the TRAS by interviewing managers and reviewing
          authoritative documentation.
    B.    Determined how the Internal Revenue Service (IRS) prevented and detected duplicate
          claims and identified and resolved inappropriate expenses.
II. Determined if the existing TRAS application controls were valid and did not exceed the limits
    established in the Federal Travel Regulation (FTR), the Internal Revenue Manual, and the
    Interim Travel Handbook.
    A.    Reviewed the system requirements documentation and evaluated the process and
          frequency through which the TRAS information was updated.
    B.    Evaluated the process through which access to the TRAS was granted and revoked.
          Compared the TRAS user list to the Treasury Integrated Management Information
          System to identify the TRAS users that were not IRS employees.
III. Obtained and analyzed the TRAS data for non-local travel vouchers approved between
     August 27, 2001, and September 30, 2002.
    A.    Performed system tests to determine whether the TRAS ensured accurate, timely
          preparation, approval, and processing of travel vouchers.
    B.    Completed analyses to determine whether duplicate travel expenses had been submitted
          and paid.
    C.    Determined whether employees appropriately identified their travel as long-term
          taxable travel. For the cases in which the employee should have identified the travel as
          long-term taxable travel and did not do so, we calculated the potential underreported
          taxable income using the 15 percent tax rate for Federal income tax, 12.4 percent for

1
  The TRAS is an automated web-based computer program that enables travelers to enter requests for travel expense
reimbursements and travel advances.
                                                                                                        Page 19
                    Additional Travel Reimbursement and Accounting System
                      Computer Program Controls Would Enhance Travel
                        Voucher Processing and Program Administration

            the Federal Insurance Contribution Act (FICA)2 tax, and 2.9 percent for the Medicare
            tax.
IV. Determined if adequate policies, procedures, and application controls were in place to ensure
    that travel advances were properly issued and recovered by interviewing management and
    performing the following tests.
        A. Assessed the management controls used to ensure that travel advances were appropriate,
           properly approved, timely recovered, and in accordance with the FTR. Management
           controls included the Automated Financial System reports used to monitor outstanding
           travel advances and the collection thereof.
        B. Determined and tested application controls to ensure that the TRAS travel advances
           were valid, accurately prepared, and properly processed, and did not exceed established
           limitations.




2
    26 USC, Section 3101.

                                                                                           Page 20
               Additional Travel Reimbursement and Accounting System
                 Computer Program Controls Would Enhance Travel
                   Voucher Processing and Program Administration

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Christopher Funke, Senior Auditor
Frank Greene, Senior Auditor
Tina Wong, Senior Auditor
Linda Screws, Auditor
Layne Powell, Information Technology Specialist




                                                                                         Page 21
               Additional Travel Reimbursement and Accounting System
                 Computer Program Controls Would Enhance Travel
                   Voucher Processing and Program Administration

                                                                               Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief Financial Officer OS:CFO
Chief Information Officer OS:CIO
Chief, Agency-Wide Shared Services OS:A
Chief, Information Technology Services OS:CIO:I
Director, Business Systems Development OS:CIO:I:B
Director, Customer Support OS:A:CS
Associate Chief Financial Officer for Internal Financial Management OS:CFO:I
Acting Director, Portfolio Management OS:CIO:R:PM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons
        Chief, Agency-Wide Shared Services OS:A
        Chief Financial Officer OS:CFO
        Manager, Program Oversight and Coordination OS:CIO:R:PM:PO




                                                                                    Page 22
                   Additional Travel Reimbursement and Accounting System
                     Computer Program Controls Would Enhance Travel
                       Voucher Processing and Program Administration

                                                                                                Appendix IV


                                           Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Cost Savings – Questioned Costs - Actual; $25,047 (see page 5).
Methodology Used to Measure the Reported Benefit:
We reviewed Travel Reimbursement and Accounting System (TRAS)1 travel voucher data for
159,494 vouchers totaling $151,545,232 approved between August 27, 2001, and
September 30, 2002. We identified 268 travel vouchers containing $29,175 in duplicate claims
of subsistence expenses (i.e., meals and lodging). Management advised us that 7 of the duplicate
claims for $4,128 were caused by a computer program problem that occurred in 2001 with the
implementation of the TRAS. These duplicate expense claims were researched and adjustments
to correct the vouchers were identified by the Beckley Finance Center (BFC). However, the
duplicate expense claims for $25,047 on the remaining 261 vouchers were caused by inadequate
management review and computer program controls.


Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $180,485 (see page 5).
Methodology Used to Measure the Reported Benefit:
We reviewed TRAS travel voucher data for 159,494 vouchers, totaling $151,545,232, approved
between August 27, 2001, and September 30, 2002. Our analysis identified 24 employees who
continuously traveled to the same location for more than 1 year, 13 of whom did not report any
of the travel expense as taxable. The inaccurate reporting of long-term taxable travel resulted in
the employees potentially underreporting income totaling $595,658 and Federal income, Federal
Insurance Contributions Act,2 and Medicare taxes estimated at $180,485.




1
  The TRAS is an automated web-based computer program that enables travelers to enter requests for travel expense
reimbursements and travel advances.
2
  26 USC, Section 3101.
                                                                                                        Page 23
                      Additional Travel Reimbursement and Accounting System
                        Computer Program Controls Would Enhance Travel
                          Voucher Processing and Program Administration

                                      Table 1: Estimated Underreported Taxes

                      Potentially           Type of Tax            Tax Rate       Potentially
                     Underreported                                               Underreported
                       Income                                                        Tax
                        $595,658          Federal Income          15 percent3           $89,349
                        $595,658                FICA              12.4 percent          $73,862
                        $595,658              Medicare            2.9 percent           $17,274
                         TOTAL                                                         $180,485
                    Source: 2001 and 2002 IRS Publication 17, Your Federal Income Tax For
                     Individuals, and the FICA and Medicare tax rates obtained from the Social
                     Security web site.

Type and Value of Outcome Measure:
•      Inefficient Use of Resources – Actual; $869 (see page 5).
Methodology Used to Measure the Reported Benefit:
In October 2002, the Internal Revenue Service (IRS) began paying late payment fees to
employees when travel vouchers were not paid within 30 days. Management advised that as of
July 23, 2003, $869 in late payment fees ($700 for TRAS vouchers and $169 for manual
vouchers) have been paid to employees on 291 travel vouchers.


Type and Value of Outcome Measure:
•      Inefficient Use of Resources – Actual; $254,702 (see page 14).
Methodology Used to Measure the Reported Benefit:
The BFC analyzed the outstanding advances over 6 years old and determined that documentation
to substantiate the advances does not exist. Therefore, the IRS could not initiate collection
action against the employees, resulting in IRS General Legal Services approving 62 travel
advances, totaling $254,702, being written-off.


Type and Value of Outcome Measure:
•      Cost Savings – Questioned Costs – Potential; $95,679 (see page 14).


3
    We calculated the income tax using the 15 percent tax rate.
                                                                                                  Page 24
                Additional Travel Reimbursement and Accounting System
                  Computer Program Controls Would Enhance Travel
                    Voucher Processing and Program Administration

Methodology Used to Measure the Reported Benefit:
During our audit, the BFC identified 152 advances over 6 years old, totaling $95,679, that are at
risk of being uncollectible because there is no supporting documentation, and the IRS has not
implemented a debt collection process.




                                                                                          Page 25
                 Additional Travel Reimbursement and Accounting System
                   Computer Program Controls Would Enhance Travel
                     Voucher Processing and Program Administration

                                                                                      Appendix V


    Mandatory Joint Financial Management Improvement Program Requirements
        Not Included in the Travel Reimbursement and Accounting System

Travel Vouchers:
•   Process partial/interim vouchers against a travel authorization to expedite liquidation related
    to travel obligations.
•   Process amended vouchers with appropriate reviewing and approving controls and provide
    the capability to update related systems/modules.
•   Provide for system generated series of notices when information has not been submitted
    timely in accordance with internal policies and procedures established by the agency.
•   Allow for offset of funds to indebtedness through salary offset, a retirement credit, or other
    amount owed the employee.
•   Provide for matching of travel vouchers with the travel authorizations and/or centrally issued
    passenger tickets and provide for audit of the claim.


Travel Advances:
Provide for limiting the allowed advance based upon the transportation method, subsistence
rates, miscellaneous expenses, and possession of a charge card.




                                                                                             Page 26
Additional Travel Reimbursement and Accounting System
  Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration

                                                        Appendix VI


    Management’s Response to the Draft Report




                                                             Page 27
Additional Travel Reimbursement and Accounting System
  Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration




                                                        Page 28
Additional Travel Reimbursement and Accounting System
  Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration




                                                        Page 29
Additional Travel Reimbursement and Accounting System
  Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration




                                                        Page 30
Additional Travel Reimbursement and Accounting System
  Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration




                                                        Page 31
Additional Travel Reimbursement and Accounting System
  Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration




                                                        Page 32
Additional Travel Reimbursement and Accounting System
  Computer Program Controls Would Enhance Travel
    Voucher Processing and Program Administration




                                                        Page 33
